Theodore B. Olson
Direct: +1 202.955.8668
Fax: +1 202.530.9575
TOlson@gibsondunn.com

October 3, 2019
VIA HAND DELIVERY AND ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

CTIA – The Wireless Association® v. The City of Berkeley, California, et
al., No. 19-439

Dear Mr. Harris:
I am counsel of record for petitioner in the above-referenced case. Pursuant
to Rule 37.2(a) of the Rules of this Court, petitioner hereby grants blanket consent
to the filing of amicus curiae briefs in support of either or no party, provided that
the amicus curiae brief otherwise complies with the Rules of this Court.
Sincerely,

/s/ Theodore B. Olson _
Theodore B. Olson

cc: Farimah Faiz Brown
Christopher David Jensen
Amanda Shanor
Lester Lawrence Lessig, III
Counsel for Respondents

